                       U.S. Environmental Protection Agency                                                    09-P-0187
                                                                                                            June 30, 2009
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: Region 8
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to conduct the annual
audit of the U.S.                 Vulnerability testing conducted in April 2009 of EPA’s Region 8 network
Environmental Protection          identified Internet Protocol addresses with numerous high-risk vulnerabilities.
Agency’s (EPA’s) compliance       If not resolved, these vulnerabilities could expose EPA’s assets to unauthorized
with the Federal Information      access and potential harm to the Agency’s network.
Security Management Act
(FISMA). Williams, Adley &         What Williams, Adley & Company, LLP, Recommends
Company, LLP, conducted the
network vulnerability testing     Williams, Adley & Company, LLP, recommends that the Region 8 Director of
of the Agency’s local area        Technical and Management Services:
network located at EPA’s
Region 8 office in Denver,        •   Implement actions to address all high-risk vulnerability findings.
Colorado.
                                  •   Update EPA’s Automated Security Self Evaluation and Remediation
                                      Tracking (ASSERT) system.
Background                        •   Perform a technical vulnerability assessment test of Region 8’s network
                                      within 30 days to demonstrate and document corrective actions that have
The network vulnerability             resolved the vulnerabilities.
testing was conducted to
identify any network risk         Due to the sensitive nature of the report’s technical findings, the full report is not
vulnerabilities and present the   available to the public.
results to the appropriate
EPA officials to promptly
remediate or document
planned actions to resolve the
vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.
